No. 20-975
A CAPITAL CASE

IN THE

SUPREME COURT OF THE UNITED STATES
FREDDIE OWENS,

Petitioner,

v.
BRYAN P. STIRLING, COMMISSIONER,
SOUTH CAROLINA DEPARTMENT OF CORRECTIONS;
LYDELL CHESTNUT, DEPUTY WARDEN,
BROAD RIVER CORRECTIONAL INSTITUTION SECURE FACILITY,1
Respondents.
UNOPPOSED MOTION TO EXTEND DATE OF DISTRIBUTION
OF PETITION FOR WRIT OF CERTIORARI
AND FOR EXTENSION OF TIME
TO FILE A REPLY TO RESPONDENT’S BRIEF IN OPPOSITION
Comes now Petitioner, Freddie Owens, pursuant to the Court’s March 19,
2020, Order, regarding filing deadlines in light of ongoing public health concerns
relating to COVID-19, to respectfully move the Court to extend the date for
distribution of the petition in this case and the corresponding time for filing a Reply
to Respondent’s Brief in Opposition by 21 days due to his pro bono counsel of record
contracting COVID-19. Respondents do not oppose this motion. In support of this
motion, Mr. Owens states the following:
Mr. Owens timely filed a petition for writ of certiorari on January 15, 2021.
The Court docketed the case on January 22, 2021, and Respondents filed a Brief in

Since the initial filing in this case in the Court of Appeals, Mr. Owens has been moved to the Broad
River Correctional Institution in Columbia, South Carolina (BRCI). According to the Director’s Brief
in Opposition, Mr. Owens currently is in the custody of Deputy Warden Lydell Chestnut at Broad
River Correctional Institution Secure Facility, so those changes are made here.
1

Opposition on February 22, 2021. Under the normal operation of the Court’s rules,
the Clerk would distribute the petition, brief in opposition, and any reply to the Court
for its consideration no less than 14 days after February 22—or no sooner than March
8, 2021. Rule 15.5. Mr. Owens asks the Court to extend the date of distribution of his
petition, and the time in which he may represent a reply to the Court, by 21 days to
March 29, 2021.
Mr. Owens requests this extension due, in part, to general difficulties imposed
when collaborating and producing pleadings under quarantine restrictions. More
specifically, however, the request is made because Pro bono Counsel of Record
Michael F. Williams just learned that he has tested positive for COVID-19 and has
been required to suspend work on this case for at least the next few weeks. At this
point, it is difficult to gauge the impact of Mr. Williams’s illness beyond its immediate
disruption, but it is our hope that the period of time requested will give Mr. Williams
time to fully recover from the virus and meaningfully return to his normal practice
and docket, including pro bono commitments.
Undersigned co-counsel has consulted with counsel for Respondents and can
represent that they do not intend to oppose this motion.
CONCLUSION
For the reasons stated above, and pursuant to the Court’s March 19, 2020,
Order, the Court should grant Mr. Owens’s unopposed motion, and extend the date
for distribution of the petition for writ of certiorari pursuant to Rule 15.5, and for
filing a reply pursuant to Rule 15.6, in this matter to March 29, 2021.

Respectfully submitted,
___________________________
ROBERT LEE
ELIZABETH J. PEIFFER
VIRGINIA CAPITAL REPRESENTATION
RESOURCE CENTER
2421 Ivy Rd., Suite 301
Charlottesville, VA 22903
(434) 817-2970
roblee@vcrrc.org
epeiffer@vcrrc.org
MICHAEL F. WILLIAMS
Counsel of Record
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave. NW
Washington, DC 20004
(202) 389-5000
mwilliams@kirkland.com
CERTIFICATE OF SERVICE
Undersigned counsel hereby certify that on February 23, 2021, counsel cause
the above Motion to be filed through the electronic filing system provided by the
Court, and served counsel for Respondents via this system.

______________________________
ROBERT LEE

